           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    UNIVERSITIES’ USE OF SOCIAL
   SECURITY NUMBERS AS STUDENT
      IDENTIFIERS IN REGION I


   August 2005     A-01-05-15071




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   August 12, 2005                                                        Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         Boston

From:   Inspector General

Subject: Universities’ Use of Social Security Numbers as Student Identifiers in Region I
        (A-01-05-15071)


        OBJECTIVE
        Our objective was to assess universities’ use of Social Security numbers (SSN) as
        student identifiers and the potential risks associated with such use.

        BACKGROUND
        Millions of students enroll in educational institutions each year. To assist in this
        process, many colleges and universities use students’ SSNs as personal identifiers.
        The American Association of Collegiate Registrars and Admissions Officers found that
        half of member institutions that responded to a 2002 survey used SSNs as the primary
        student identifier.1 Although no single Federal law regulates overall use and disclosure
        of SSNs by colleges and universities, the Privacy Act of 1974, the Family Educational
        Rights and Privacy Act, and the Social Security Act, contain provisions that govern
        disclosure and use of SSNs. (See Appendix B for more information on the specific
        provisions of these laws.)

        SCOPE AND METHODOLOGY
        We selected a sample of 12 educational institutions in Region I.2 For each selected
        school, we contacted university personnel and reviewed school policies and practices
        for using SSNs. See Appendices C and D for additional details on the scope and
        methodology of our review and a list of the educational institutions we contacted,


        1
         Academic Transcripts and Records: Survey of Current Practices, April 2002 Special Report, the
        American Association of Collegiate Registrars and Admissions Officers.
        2
         Region I consists of the following six States: Connecticut, Maine, Massachusetts, New Hampshire,
        Rhode Island, and Vermont.
Page 2 - Manuel J. Vaz


respectively. We are conducting a review in each of the Social Security Administration’s
(SSA) 10 regions and will issue separate reports to each Regional Commissioner.

RESULTS OF REVIEW
Based on our contacts with university personnel and reviews of school policies and
practices, we are concerned about universities’ use of SSNs as student identifiers. We
identified several instances in which universities used SSNs as the primary student
identifier or for other purposes, even when another identifier would suffice. However,
we are encouraged that officials from many of the universities we contacted shared our
concern and stated that their universities had taken, or were planning to take, steps to
reduce SSN use as the primary student identifier.

Specifically, for the 12 schools contacted in Region I, we found that:
    •   7 used the SSN as the primary identifier and the schools did not provide
        students with documentation explaining how their SSNs are used,
    •   3 did not use the SSN as the primary identifier, and
    •   2 had not responded despite numerous follow-up contacts from us.3

Of the 7 schools who used the SSN as the primary identifier, we found that:
    •   4 had students using their SSNs to register for classes online or by telephone
        and a fifth school discontinued this practice in May 2005.
    •   4 gave instructors access to students’ SSNs.
    •   4 planned to reduce the use of SSNs as the student identifier, but 3 schools did
        not have such plans. For example, one university did not have immediate plans
        to reduce use of the SSN because of other priorities and the high cost involved.

(Schools may fall into one or more of the three categories above.)

COLLEGES AND UNIVERSITIES CONTINUED TO USE THE SSN AS AN
IDENTIFIER

Despite the increasing threat of identity theft, some colleges and universities continued
to use the SSN for several purposes, particularly as the primary student identifier. The
following table identifies some uses of the SSN at the seven universities and colleges
who use it as the primary identifier and our related concerns.




3
 We initially requested information in February and March 2005 and we followed up several times, but as
of July 13, 2005, the schools were not cooperating.
Page 3 - Manuel J. Vaz



                          SSN Use and Related Concerns
          SSN USE                                        CONCERN
Class Registration: At           The on-line registration process generally results in
several institutions, students   electronic databases that identify students by SSN.
had to disclose their SSNs       Without strict application controls, individuals’ SSNs
to register for courses (on-     could be compromised.
line or by telephone).
Class Rosters: Class             Listing SSNs on class rosters with students’ names
rosters at some universities     exposes the SSNs to university employees. At a
and colleges listed the          minimum, the practice makes SSNs available to
students’ SSNs and names.        instructors. If instructors do not adequately safeguard
                                 class rosters, students’ names and SSNs could be
                                 vulnerable to unauthorized access.
Transcripts: Several             Transcripts are requested in person or are mailed to the
institutions provided            students’ addresses. Listing the SSNs on transcripts
transcripts to students with     exposes the SSN if it is stolen through the mail or to
their SSNs appearing on the      anyone who comes in contact with a student’s transcript.
documents.
Class Grade Reports:            Listing SSNs and students’ names on class grade reports
Instructors at some of the      discloses the SSNs to university/college employees.
universities and colleges       This weakens institutional control over the SSN.
reported final grades to the
registrar’s office by students’
SSNs.

Some universities and colleges in Region I had initiated actions to phase out the SSN
as a primary student identifier. For example, one university will be assigning all
students new identification numbers beginning in the summer of 2005. All students
(new and current) will receive a randomly generated student identification number and a
new identification card by the fall semester of 2005. Additionally, based on our
interview, one school is planning to eliminate the SSN from official transcripts issued to
students and third parties.

Most of the colleges and universities we contacted recognized the importance of
protecting students’ identities along with restricting the use of the SSN as a student
identifier. However, officials at several of these institutions cited funding limitations as a
hurdle in implementing changes to information systems that would enable the transition
to non-SSN student identification numbers. According to these officials, costly
enhancements to existing information systems or the implementation of a new student
information system is often necessary to support the replacement of the SSN as the
primary student identifier. Additionally, the Registrar for one institution stated the
college did not intend to change its use of the SSN as a student identifier because it is
easier to track and identify students by their SSNs. However, all of the colleges and
Page 4 - Manuel J. Vaz


universities we contacted that used the SSN as a student identifier, stated that students
have the option of using another number as an identification number.

We did not identify instances in which students’ SSNs were misused at the colleges and
universities included in our audit. However, we believe the potential for misuse is
greater at those universities that continue to use the SSN as the primary student
identifier. We are encouraged that some of the colleges and universities using the SSN
as the primary student identifier have adopted plans to eliminate this practice and will
only use it for financial aid and tax purposes. The institutions we contacted
acknowledged the risks of using the SSN and will strive to limit SSN exposure.

LEGISLATION RELATED TO SSN USE AND IDENTITY FRAUD

During Calendar Year 2004, two of the six States in Region I passed legislation on the
use or display of the SSN, and one State passed legislation related to identity fraud.
•     Connecticut passed legislation that prohibits an entity that purchases a housing
      project from disclosing to the public the tenants’ SSNs from the tenants’ lease
      agreements. Additionally, this legislation prohibits housing authorities from
      disclosing the SSNs of tenants to anyone except a purchaser of a housing project
      without the tenant’s permission.4
•     New Hampshire passed legislation that increased the penalty for identity fraud.5
•     Vermont passed legislation that makes it a crime to obtain, produce, possess, use,
      sell, give, or transfer personal identifying information (including SSNs) belonging or
      pertaining to another person with intent to use the information to commit a
      misdemeanor or a felony.6 Additionally, this legislation requires that a study be
      completed related to the use of SSNs by both public and private entities and that
      proposals be developed to reduce such use wherever possible and protect privacy
      and security when the numbers must be used.7




4
    Connecticut General Statutes § 8-64b.
5
    Revised Statutes Annotated 638:26.
6
    Thirteen Vermont Statutes Annotated § 2030, §§ 4-5.
7
 The Identity Theft Study Committee Report On the Use of Social Security Numbers was issued to the
State Legislature in January 2005 and it recommends that legislation be proposed that would restrict the
use of SSNs. Specifically the report recommended that this legislation implement the following
restrictions on the use of SSNs: (1) no public posting or display of an individual’s SSN; (2) no printing of
an SSN on any card required to access products or services; (3) prohibition against any requirement of
the transmission of an SSN over the Internet, unless secure connection or SSN is encrypted; (4)
prohibition against any requirement of an SSN to access an Internet website, unless a password or
unique personal identification number or other authentication device is also required for access; and
(5) prohibition against any use of SSNs on any materials that are mailed (certain exceptions apply).
Page 5 - Manuel J. Vaz


POTENTIAL RISKS ASSOCIATED WITH COLLECTING AND USING SSNs

Each time an individual divulges his or her SSN, the potential for a thief to illegitimately
gain access to bank accounts, credit cards, driving records, tax and employment
histories and other private information increases. We believe the following examples
illustrate students’ risk of exposure to such activity. Because some universities still use
SSNs as the primary identifier, students’ exposure to identity theft and fraud remains.

•   A computer at Boston College that contained the SSNs of about 100,000 alumni was
    breached by a hacker in March 2005. As a result of this breach, Boston College
    took immediate action to purge all SSNs from this system and from all alumni
    records.

•   Tufts University—a school in Medford, Massachusetts—sent letters to
    106,000 alumni in April 2005 warning of abnormal activity on a computer that
    contained names, addresses, telephone numbers, and in some cases, Social
    Security and credit card numbers.

•   A former Tufts University medical student was arrested and sentenced to 364 days
    in Federal prison in April 2005 after pleading guilty to fraudulently obtaining more
    than $150,000 in loans and scholarships by using false identities and SSNs to
    secure the funds and admission to other schools, after his student visa expired.

CONCLUSION AND RECOMMENDATIONS
Despite the potential risks associated with using SSNs as primary student identifiers,
some colleges and universities in Region I continued this practice. While we recognize
SSA cannot prohibit colleges and universities from using SSNs as student identifiers,
we believe SSA can help reduce potential threats to SSN integrity by encouraging
schools to limit SSN collection and use. We also recognize the challenge of educating
such a large number of educational institutions. However, given the potential threats to
SSN integrity, such a challenge should not discourage SSA from taking steps to
safeguard SSNs. Accordingly, we recommend that SSA, as resources permit:

1. Coordinate with colleges/universities and State/regional educational associations to
   educate the university community about the potential risks associated with using
   SSNs as student identifiers.

2. Encourage colleges and universities to limit their collection and use of SSNs.

3. Promote the best practices of educational institutions that no longer use SSNs as
   student identifiers.
Page 6 - Manuel J. Vaz


AGENCY COMMENTS
SSA agreed with our recommendations. Specifically, SSA field office staff will discuss
with the institutional officials the risks associated with using SSNs as student identifiers,
encourage officials to limit the collection and use of SSNs, and share best practices of
those institutions that no longer use SSNs as student identifiers. (See Appendix E for
the Agency’s comments.)




                                                  S
                                                  Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Federal Laws that Govern Disclosure and Use of the Social Security
             Number

APPENDIX C – Scope and Methodology

APPENDIX D – Educational Institutions Reviewed

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
FERPA    Federal Educational Rights and Privacy Act
SSA      Social Security Administration
SSN      Social Security Number
U.S.C.   United States Code
                                                                                    Appendix B

Federal Laws that Govern Disclosure and Use
of the Social Security Number
The following Federal laws establish a general framework for disclosing and using the
Social Security number (SSN).

The Privacy Act of 1974 (5 U.S.C. § 552a; Public Law 93-579, §§ 7(a) and 7(b))

The Privacy Act of 1974 provides that it is unlawful for a State government agency to
deny any person a right, benefit, or privilege provided by law based on the individual’s
refusal to disclose his/her SSN, unless such disclosure was required to verify the
individual’s identity under a statute or regulation in effect before January 1, 1975.
Further, under Section 7(b), a State agency requesting that an individual disclose
his/her SSN must inform the individual whether the disclosure is voluntary or
mandatory, by what statutory or other authority the SSN is solicited, and what uses will
be made of the SSN.

The Family Educational Rights and Privacy Act (20 U.S.C. § 1232g; 34 C.F.R. Part 99)

The Family Educational Rights and Privacy Act (FERPA) protects the privacy of student
education records. FERPA applies to those schools that receive funds under an
applicable program of the U.S. Department of Education. Under FERPA, an
educational institution must have written permission from the parent or eligible student
to release any personally identifiable information (which includes SSNs) from a
student’s education record.1 FERPA does, however, provide certain exceptions in
which a school is allowed to disclose records without consent. These exceptions
include disclosure without consent to university personnel internally who have a
legitimate educational interest in the information, to officials of institutions where the
student is seeking to enroll/transfer, to parties to whom the student is applying for
financial aid, to the parent of a dependent student, to appropriate parties in compliance
with a judicial order or lawfully issued subpoena, or to health care providers in the event
of a health or safety emergency.




1
  FERPA gives parents certain rights with respect to their children’s education records. These rights
transfer to the child when the child reaches the age of 18 or attends an institution of postsecondary
education. Children who have been transferred these rights are referred to as “eligible students.”


                                                   B-1
The Social Security Act

The Social Security Act provides that “[s]ocial security account numbers and related
records that are obtained or maintained by authorized persons pursuant to any
provision of law, enacted on or after October 1, 1990, shall be confidential, and no
authorized person shall disclose any such social security account number or related
record.” (42 U.S.C. §405(c)(2)(C)(viii)). The Social Security Act also provides that
“[w]hoever discloses, uses, or compels the disclosure of the social security number of
any person in violation of the laws of the United States; shall be guilty of a felony…”
(42 U.S.C. §408(a)(8)).




                                          B-2
                                                                       Appendix C
Scope and Methodology
To accomplish our objective, we:

   •   interviewed selected university personnel responsible for student admissions,
       registrations, or information systems;

   •   reviewed Internet websites of the 12 colleges and universities we contacted;

   •   reviewed applicable laws and regulations; and

   •   reviewed selected studies, articles and reports regarding universities’ use of
       Social Security numbers (SSN) as student identifiers.

We contacted 12 universities and colleges in the New England area. Of those 12, we
visited 6 and contacted personnel at 6 others to learn more about their policies and
practices for using SSNs as student identifiers. Our review of internal controls was
limited to gaining an understanding of universities’ policies over the collection,
protection and use/disclosure of SSNs. The Social Security Administration entity
reviewed was the Office of the Deputy Commissioner for Operations. We conducted
our audit from February through May 2005 in accordance with generally accepted
government auditing standards.
                                                                                  Appendix D

Educational Institutions Reviewed
The following table shows the names, locations, and total undergraduate student
enrollments for the 12 educational institutions contacted in Region I.

                                                                                      Student
                       School                            Location
                                                                                     Enrollment
   1      Charter Oak State College            New Britain, Connecticut                  1,495

   2      University of Hartford               West Hartford, Connecticut                5,300

   3      University of Maine                  Orono, Maine                              8,397

   4      St. Joseph’s College                 Standish, Maine                             960

   5      Northeastern University              Boston, Massachusetts                   14,618

   6      Clark University                     Worcester, Massachusetts                  2,082

   7      University of New Hampshire          Durham, New Hampshire                   10,942

   8      Rivier College                       Nashua, New Hampshire                     1,447

   9      University of Rhode Island           Kingston, Rhode Island                  10,957

   10     Rhode Island College                 Providence, Rhode Island                  6,771

   11     Champlain College                    Burlington, Vermont                       2,307

   12     University of Vermont                Burlington, Vermont                       8,156
   Source: We determined student enrollment by reviewing the following website: www.collegeboard.com.
                  Appendix E

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      July 28, 2005                                                            Refer To: S2D1G3/ER

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Manuel J. Vaz
           Regional Commissioner
           Boston

Subject:   Universities’ Use of Social Security Numbers as Student Identifiers in Region I
           (A-01-05-15071)

           Thank you for the opportunity to comment on the draft audit report on Universities’ use of the
           SSN as student identifiers in our Region. Our comments on each of the three recommendations
           are provided below.

           1. Coordinate with colleges/universities and state/regional educational associations to educate
              the university community about the potential risks associated with using SSNs as student
              identifiers.

              Most of our field offices parallel to colleges and universities have an ongoing relationship
              with the institutional officials for various reasons such as enumeration and recruitment.
              During these contacts, we will discuss with the institutional officials the risks associated with
              using SSNs as student identifiers.

           2. Encourage colleges and universities to limit their collection and use of SSNs.

              During the contacts mentioned in response to the first recommendation, we will encourage
              officials to limit their collection and use of the SSNs. We agree, however, with the comments
              made by the Acting Regional Commissioner of the Kansas City Region that this
              recommendation may not be practical to implement. We believe that the use of the SSN is
              pervasive for many reasons (financial assistance applications being just one).

           3. Promote the best practices of educational institutions that no longer use SSNs as student
              identifiers.

              In our contacts with college and university officials, we will include a discussion of the best
              practices of those institutions that no longer use SSNs as student identifiers.



                                                          E-1
Again, thank you for the opportunity to comment on this draft. If members of your staff have any
questions they may contact Sharon Valerio of the Center for Programs Support at 617-565-2882.



cc: Deputy Director, Office of Audit, Boston




                                               E-2
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807

Acknowledgments

In addition to those named above:

   Frank Salamone, Auditor

   Melinda Tabicas, Auditor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-05-15071.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
